Case: 20-1119

Document: 16-1

Filed: 07/09/2020

Page: 1

No. 20-1119
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

DAVID ERIKE MACLLOYD,
Defendant-Appellant.

)
)
)
)
)
)
)
)
)
)

Jul 09, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: CLAY, ROGERS, and MURPHY, Circuit Judges.
On December 5, 2019, the district court entered an order denying David Erike MacLloyd’s
motion for reduction in his sentence under 18 U.S.C. § 3582(c)(2). Any notice of appeal was due
to be filed by December 19, 2019. See Fed. R. App. P. 4(b)(1)(A), 26(a). The notice of appeal,
postmarked January 30, 2020, and filed in the district court on February 6, 2020, is late. See id.
The government has filed a motion to dismiss the appeal because MacLloyd has failed to
comply with the time limitations of Federal Rule of Appellate Procedure 4(b). In response to the
motion to dismiss, MacLloyd asserts that the district court never informed him that the order
denying his § 3582(c)(2) motion was appealable, as the court had done when it denied his previous
28 U.S.C. § 2255 motion. He also asserts that he was never provided with a notice of appeal form.
The time period set forth in Rule 4(b) for filing a notice of appeal is not jurisdictional, but
it is a mandatory claim-processing rule that must be enforced if raised by the government. United
States v. Brown, 817 F.3d 486, 489 (6th Cir. 2016); United States v. Gaytan-Garza, 652 F.3d 680,
681 (6th Cir. 2011) (per curiam).

Here, the government properly raised its objection to

MacLloyd’s late filing in its motion to dismiss. And unlike a criminal conviction or imposition of
sentence, see Fed. R. Crim. P. 32(j), there was no duty for the court to advise MacLloyd of his

Case: 20-1119

Document: 16-1

Filed: 07/09/2020

Page: 2

No. 20-1119
-2right to appeal the denial of his modification motion. Because MacLloyd did not file a timely
notice of appeal and did not obtain an extension of time to file his notice of appeal under Rule
4(b)(4), we DISMISS this appeal.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case 2:08-cr-20289-GCS-DAS ECF No. 299, PagelD.2874 Filed 05/24/18 Page 1 of 22

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
Case No. 08-CR-20289
vs.
HON. GEORGE CARAM STEEH
D-1 DAVID ERIKE MACLLOYD
Defendant.

ORDER DENYING DEFENDANT’S 28 U.S.C. $ 2255 MOTION
On August 26, 2010, Mr. David MacLIoyd was convicted by jury
verdict of Conspiracy to Distribute and Possess with Intent to Distribute
More Than 5 kilograms of Cocaine, 21 USC §846 and §841(a)(i) (Count 1);
Aiding and Abetting Possession of More Than 5 Kilograms of Cocaine, 21
USC §841 (a)(1) and 18 USC §2 (Count 2); Use of Telephone to Cause
and Facilitate a Felony Drug Transaction, 21 USC §843 (Counts 3-5 and
18-25); Maintaining a Drug-Involved Premises, 21 USC §856(a)(1) (Count
26) and Forfeiture (Count 31). On February 6, 2012, MacLIoyd was
sentenced to 360 months imprisonment on Counts 1 and 2 and received
lesser sentences on the other counts.
Mr. MacLIoyd filed a timely direct appeal of his convictions and
sentences to the Sixth Circuit Court of Appeals. That court affirmed his
-1 -

Case 2:08-cr-20289-GCS-DAS ECF No. 299, PagelD.2875 Filed 05/24/18 Page 2 of 22

convictions and sentences on April 16, 2013, United States v. MacUoyd,
526 F. App’x 434, 447 (6th Cir. 2013). A Petition for Writ of Certiorari was
denied by the U.S. Supreme Court on October 8, 2013.
On January 24, 2014, MacUoyd filed a timely pro se motion to
vacate, set aside, or correct his sentence under 28 U.S.C. § 2255. Among
his claims for relief, MacUoyd alleged that Loeb provided ineffective
assistance by “not properly communicating [a] plea deal.” (R.252, 2255
Motion, PgID #2475). MacUoyd alleged that the government presented
Loeb with a formal written plea offer that “w[as] never shown to me or
properly communicated to me.” (R.252, PgID #2475). Loeb allegedly never
discussed the offer’s details or merits, he provided only a “non-detailed
description of a plea.” (R.252, PgID #2469-70, 2475). MacLIoyd further
alleged that if Loeb had properly advised him, MacLIoyd “would have
definitely taken the [plea deal] because of the cooperation.” (R.252, PgID
#2475). On February 14, 2014, MacLIoyd filed a substantially identical
amended motion, adding further claims not relevant to this proceeding.
(R.256, Amended 2255 Motion, PgID #2495).
On July 11, 2014, the government responded opposing MacLIoyd’s
motion arguing that MacLIoyd’s ineffective assistance issues fall “woefully
short in proving these acts or omissions were ‘outside the wide range of
professionally competent assistance.’” (R.263, PgID #2513. On August 18
-2-

Case 2:08-cr-20289-GCS-DAS ECF No. 299, PagelD.2876 Filed 05/24/18 Page 3 of 22

2014, MacLIoyd replied to the government and provided additional
information about Loeb’s ineffective assistance with regard to a written
Rule 11 plea offer by the government. (R.265, PgID #2543), and further
elaborated about the circumstances of his claim against Loeb in an
addendum to his reply (R.267, PgID #2547).
On November 20, 2014, this Court denied Mr. MacLIoyd’s motion
without a hearing. Regarding MacLIoyd’s claims of ineffective assistance of
counsel, the court stated that “[t]he Sixth Circuit and other courts reject
ineffective assistance claims that rest upon conclusory, unsupported
allegations of counsel’s deficient performance.” (R.268, Order, PgID
#2555). The Court found that MacLIoyd “likewise failed to show the
prejudice required for a finding of ineffective assistance of counsel.” The
Court denied a certificate of appealability. (R.268, PgID #2556).
On December 3, 2014, MacLIoyd filed a timely notice of appeal, and
on April 6, 2015, he moved the Court of Appeals for a certificate of
appealability (R.269, PgID #2558). On August 18, 2015, the appeals court
granted a certificate of appealability on the issue of “whether the district
court should have held an evidentiary hearing on MacLIoyd’s claim that he
was denied the effective assistance of counsel because Loeb did not fully
advise him of a favorable plea offer.” On April 4, 2017, the Sixth Circuit
entered an opinion reversing and remanding for an evidentiary hearing.
-3-

Case 2:08-cr-20289-GCS-DAS ECF No. 299, PagelD.2877 Filed 05/24/18 Page 4 of 22

This Court held an evidentiary hearing held on November 30 and
December 7, 2017.
Findings of Fact

1.

On May 22, 2008, a federal grand jury returned an indictment

charging David Erike MacLIoyd, his brother Clifford, and others with
conspiracy to possess with intent to distribute five kilograms or more of
cocaine, in violation of Title 21, United States Code, Section 846. [R. 1].
If convicted as charged, MacLIoyd faced a mandatory minimum term of
imprisonment of ten years and a maximum of life.
2.

MacLIoyd appeared on the indictment on May 28, 2008, represented

by attorney Nicholas Kazmerski. [R. 5]. Kazmerski was a student of
attorney Thomas Loeb’s at the trial college of the Criminal Defense
Attorneys of Michigan, and he asked Loeb to assist him in representing
MacLIoyd, due to Loeb’s more significant experience with federal criminal
defense. [R. 293 at 8-9, PgID 2623-24], Loeb entered an appearance on
June 20, 2008. [R. 40],
3.

Loeb has been a licensed attorney in Michigan, representing

criminal defendants for more than forty years; for at least twenty of those
years, he has been representing defendants in federal court. [R. 293 at 6,
PgID 2621]. Loeb is very familiar with the ethical obligations of attorneys; in
fact, part of his practice is grievance defense, representing licensed
-4-

Case 2:08-cr-20289-GCS-DAS ECF No. 299, PagelD.2878 Filed 05/24/18 Page 5 of 22

professionals accused of misconduct. [R. 293 at 30-31, PgID 2645-46],
MacLIoyd signed a fee agreement, paying Loeb $15,000 of a promised
$30,000. [R. 293 at 9, 32, 57-58, PgID 2624, 2647, 2673-74]. Loeb advised
MacLIoyd of his statutory sentencing exposure (mandatory ten-year
minimum, up to life) at the very beginning of their relationship. [R. 293 at 58
PgID 2674],
4.

On September 23, 2008, then-Assistant United States Attorney

(AUSA) Matthew Schneider faxed a proposed plea agreement and
cooperation agreement to Kazmerski. [Gov’t Ex. 1], The plea agreement
contemplated a sentencing guideline range of 135-168 months, with a tenyear mandatory minimum. Id. The cooperation agreement provided that, if
the government - in its sole discretion - determined MacLIoyd had provided
substantial assistance, the government would not seek to establish a higher
guideline range by contesting acceptance of responsibility or establishing a
greater drug amount than contemplated by the plea agreement. Id.
5.

On October 22, 2008, AUSA Schneider faxed a letter to

Loeb, referencing a plea agreement he had forwarded to Loeb and
advising him that plea agreement would result in an estimated guideline
range of 135-168 months. [Gov’t Ex. 2], The referenced plea agreement
was the same one that had been provided to Kazmerski on September 23.
[R. 293 at 15, PgID 2630], AUSA Schneider further advised that
-5-

Case 2:08-cr-20289-GCS-DAS ECF No. 299, PagelD.2879 Filed 05/24/18 Page 6 of 22

MacLIoyd’s estimated guideline range if convicted at trial was 235-293
months. [Gov’t Ex. 2]. In addition, a Rule 11 plea agreement was offered to
MacLIoyd’s brother and co-defendant, Clifford MacLIoyd, which was
conditioned on both of the brothers pleading guilty. [R. 183 at 186-87, PgID
873-74].
6.

MacLIoyd and Loeb met before Court status conferences held on

November 6, 2008, and December 1, 2008. At the evidentiary hearing
Loeb testified that he only retains his files for five years, so he no longer
had his files from this case. While Loeb did not specifically recall what
happened in this case, he testified that it was his practice to provide a copy
of the plea offer and review it with his client if he had any questions. [R.
293 at 23, PgID 2638]. According to Loeb, MacLIoyd consistently refused
to consider pleading guilty, advising Loeb that he wanted his “day in court.”
[R. 293 at 22, PgID 2637], Loeb testified that he made MacLIoyd aware of
this plea offer and MacLIoyd rejected it. [R. 293 at 25, PgID 2640]. The
Court finds Loeb’s testimony in this regard to be Credible, particularly
because the dates he refers to were dates set for plea hearings. It is
logical that Loeb would have gone over the government’s Rule 11 with
MacLIoyd in preparation for their appearance before the Court, as the very
reason MacLIoyd and Loeb came to court those days was to address
whether Loeb was going to enter a guilty plea.
-6-

Case 2:08-cr-20289-GCS-DAS ECF No. 299, PagelD.2880 Filed 05/24/18 Page 7 of 22

7.

On December 10, 2008, AUSA Schneider faxed a letter to Loeb

confirming a meeting then set for December 23 in the U.S. Attorney’s
Office in Detroit. [Gov’t Ex. 3]. The purpose of the meeting, characterized
as a “reverse proffer,” was for AUSA Schneider and the case agents to
present the government’s evidence to Loeb and MacLIoyd so that
MacLIoyd could understand the strength of the case against him and to
discuss a plea. [Gov’t Ex. 3; R. 293 at 11-12, PgID 2626-27], This reverse
proffer meeting was rescheduled for January 8, 2009. [Gov’t Ex. 4], One of
the things Loeb told MacLIoyd before the meeting was that a purpose of
the reverse proffer was “for him to consider the Rule 11 plea agreement
that [they had] discussed.” [R. 293 at 55, PgID 2670]. Loeb was impressed
with the quality of the evidence of MacLIoyd’s guilt and recommended that
he plead guilty. [R. 293 at 19, PgID 2634]. Loeb and MacLIoyd discussed
the pending plea offer again after the reverse proffer, and MacLIoyd
maintained his rejection of that offer. [R. 293 at 29-30, PgID 2644-45],
8.

MacLIoyd’s claim that the reverse proffer took place in July or August

2008 [R. 294 at 60, PgID 2675] is not credible in light of the documentary
evidence contradicting that claim, specifically the letters scheduling and
rescheduling the reverse proffer. A reverse proffer designed to encourage
acceptance of a plea offer makes more sense if a plea offer has already
been made. The government’s letter confirming the reverse proffer
-7-

Case 2:08-cr-20289-GCS-DAS ECF No. 299, PagelD.2881 Filed 05/24/18 Page 8 of 22

meeting on December 23, 2008 states the purpose was to discuss the
possibility of a plea. [Gov’t Ex. 3]. A Rule 11 plea agreement had already
been offered to MacLIoyd and the purpose of the reverse proffer was to
convince MacLIoyd to accept the outstanding plea agreement, which
offered a range of 135-168 months with a mandatory minimum often years.
A cooperation agreement was attached to the Rule 11 which offered the
possibility of a lower sentence if the Court varied downward from that
range. The meeting failed to achieve that purpose bedause MacLIoyd
ultimately rejected the offer.

9.

MacLIoyd claims that AUSA Schneider offered him a ten-year plea

at the reverse proffer [R. 294 at 8, PgID 2712; R. 256 at 10]. There is
nothing in writing demonstrating that this occurred. MacLIoyd testified that
after the proffer he asked Loeb about the ten year offer and that Loeb
responded “no wine before its time.” This may have been Loeb’s way of
explaining to MacLIoyd that plea negotiations are a process and they had
to let the process take its course. Or, Loeb may have been referring to the
fact that MacLIoyd’s cooperation would dictate his ultimate sentence.

10.

Referring to the government’s alleged offer often years, MacLIoyd

claimed at the evidentiary hearing he wanted to “jump on that” deal, [R.
294 at 8-9, PgID 2712-13], but in his 2255 motion, he said he “did not
entertain this plea because [he] was still operating under the premise that
-8-

Case 2:08-cr-20289-GCS-DAS ECF No. 299, PagelD.2882 Filed 05/24/18 Page 9 of 22

[he] would be pleading out to a 5 year sentence ... later.” [R. 256 at 10].
The Court does not believe that either of these claims made by MacLIoyd
supports a legitimate 5 or 10 year plea deal that was offered by the
government.
11. At the next status conference, on January 13, 2009, the Court began
the hearing under the assumption that David and Clifford MacLIoyd were
prepared to plead guilty to the conspiracy charge. [R. 183 at 4, PgID 871],
Before that hearing, Loeb and MacLIoyd had again discussed the
possibility of a plea. [R. 293 at 41, PgID 2656], In response to questions
from the Court, David MacLIoyd definitively indicated his wish to go to trial;
he affirmed that he had reviewed the Rule 11 plea agreement and
understood there was a cooperation agreement as well. [R. 183 at 5, PgID
872]. MacLIoyd responded to questions by the Court that he understood
the agreement’s guideline range to be 135-168 months. Id. The Court
explained that under the terms of the cooperation agreement it would have
“the discretion to consider a sentence of something less than the
mandatory minimum sentence.” Id. at 872-73. MacLIoyd affirmed he had
“ample opportunity” to discuss his decision with his lawyer; that he
understood the decision whether to plead was up to him, no matter what
his lawyer’s advice was, and that he made the decision to reject the 135168 month plea offer without having been forced or pressured by anyone.
-9-

Case 2:08-cr-20289-GCS-DAS ECF No. 299, PagelD.2883 Filed 05/24/18 Page 10 of 22

Id. at 873.
12.

The Court does not credit MacLIoyd’s account that he only answered

the Court’s questions at the plea hearing in the affirmative because he
was instructed to do so by Mr. Loeb. The Court witnessed Mr. MacLIoyd’s
demeanor at both the plea hearing in 2009 and at the evidentiary hearing
on remand, and has at all times found him to be quite self-confident,
articulate and capable of speaking on his own behalf. In addition
MacLIoyd witnessed the discussion between the Court and Mr. Ihrie, his
brother’s attorney, regarding the fact that Clifford wanted to enter a guilty
plea under his Rule 11, but because it was conditioned on David entering
a guilty plea as well, he could not do so. Mr. Ihrie explained that because
David wanted to go to trial, Clifford had to as well. [R. 83 at 6-7, PgID
873-74],
13.

MacLIoyd’s testimony that Loeb never discussed the plea offer with

him and that his answers to the Court on January 13 were lies Loeb
encouraged him to tell [R. 293 at 64-65, PgID 2679-80] is not credible, in
light of its self-serving nature, the Court’s own observations and
recollections, and Loeb’s credible contradictory testimony. Even
MacLIoyd’s own filings in this case contradict his testimony - in his reply to
the government’s response to his 2255 motion, MacLIoyd acknowledges
that Loeb informed him in January 2009 “that the government had offered
-10-

Case 2:08-cr-20289-GCS-DAS ECF No. 299, PagelD.2884 Filed 05/24/18 Page 11 of 22

[him] a plea for 135-168 months.” [R. 265 at 3, PgID 2543]. MacLIoyd also
has experience in the federal criminal justice system, with a prior federal
conviction from the 1990s, which he sustained at trial after rejecting a plea
offer. [R. 293 at 75-76, PgID 2690-91], In 2008, he was 38 years old. [R.
293 at 80, PgID 2695], In addition there is no allegation that MacLIoyd ever
asked Loeb or any of his subsequent attorneys about an offer for 135-168
months, though he admits he was aware of such an offer at least as of the
Court hearing on January 13, 2009. [R. 294 at 12, Pgld 2716],

14.

On January 29, 2009, a federal grand jury returned a

superseding indictment against MacLIoyd and the other remaining
defendants. MacLIoyd was charged with additional offenses including
aiding and abetting another in the possession with intent to distribute
using a communications facility to commit conspiracy, maintaining a druginvolved premises and money laundering. [R. 54], While the superseding
indictment charged MacLIoyd with additional offenses, it did not increase
the mandatory minimum or maximum punishments.
15.

Loeb was concerned about MacLIoyd not paying the remaining

$15,000 that he owed on his retainer agreement. Loeb contends that he
offered to lower his fee if MacLIoyd would plead because he did not think
he was going to be paid any more. [R. 293 at 24, PgID 2639], MacLIoyd
refused to plead, disagreed with Loeb’s legal advice, and failed to pay his
-11 -

Case 2:08-cr-20289-GCS-DAS ECF No. 299, PagelD.2885 Filed 05/24/18 Page 12 of 22

legal fees. As a result, there was a breakdown in the attorney-client
relationship and Loeb asked for and received permission from the Court to
withdraw on February 24, 2009. [R. 293 at 35-36, PgID 2650-51; R. 58,
60], Certainly, there was frustration on the part of MacLIoyd as well as
Loeb, and MacLIoyd even voiced his concerns to the Court that Loeb had
been paid $15,000 and did no work to prepare for his trial. [R.184, Tr.
2/24/09, PgID 889-90], Given the breakdown in the relationship, during the
weeks preceding the February 24, 2009 withdraw motion hearing, it is
unlikely that Mr. Loeb continued to discuss the plea offer with Mr.
MacLIoyd. However, the terms of the Rule 11 had already been
communicated to MacLIoyd and rejected by him in court. The fact that
there was no further discussion about the plea was due to MacLIoyd’s lack
of interest in accepting the plea. In addition, when the superseding
indictment was filed on January 29, 2009, the previous Rule 11 was
terminated and there was no new deal to discuss.

16.

On March 5, 2009, defense attorney James Waske entered an

appearance for MacLIoyd, having been appointed pursuant to the
Criminal Justice Act. [R. 64, 68]. Waske has been a member of the
Michigan state bar, doing criminal defense work, for 38 years; for more
than thirty years, he has represented defendants in federal criminal cases.
[R. 294 at 47-48, PgID 2751-52],
-12-

Case 2:08-cr-20289-GCS-DAS ECF No. 299, PagelD.2886 Filed 05/24/18 Page 13 of 22

17.

On May 13, 2009, AUSA Schneider sent a proposed plea agreement

to Waske. [Gov’t Ex. 5-6]. This plea agreement calculated the guideline
range at 168-210 months, with the mandatory minimum still at ten years.
[Gov’t Ex. 6], The higher range resulted from adding four points, rather than
two, to the base offense level for MacLIoyd’s leader / organizer role in
the offense. [Gov’t Ex. 1, 6]. Like the previously provided cooperation
agreement, the associated cooperation agreement provided that, if the
government determined MacLIoyd had provided substantial assistance, the
government would not seek to establish a higher guideline range by
contesting acceptance of responsibility or establishing a greater drug
amount than contemplated by the plea agreement. Id.
18.

The same day, AUSA Schneider faxed Waske a letter advising him

that MacLIoyd’s guideline range under the agreement would be an
estimated 168-210 months, but his guideline range if convicted at trial
would be 360 months to life. [Gov’t Ex. 5].
19.

At the status conference on May 14, 2009, the parties informed the

Court, with MacLIoyd present, that the government had made a plea offer
but both David and Clifford MacLIoyd intended to go to trial. [R. 185, PgID
896-97], At the next status conference, on June 24, 2009, Waske advised
the Court that MacLIoyd did not want to accept the plea offer despite the
fact that his brother’s offer was contingent on both of them pleading. [R.
-13-

Case 2:08-cr-20289-GCS-DAS ECF No. 299, PagelD.2887 Filed 05/24/18 Page 14 of 22

186, PgID 907-09],
20.

The grand jury returned a second superseding indictment charging

Clifford and David MacLIoyd on November 19, 2009. [R. 117]. Waske and
MacLIoyd’s relationship eventually broke down and Waske’s second
motion to withdraw was granted by the Court on January 7, 2010. [R. 123].
21.

The Court appointed defense attorney David Cripps to represent

MacLIoyd, and Cripps entered an appearance on March 3, 2010. [R. 124
129], Cripps has been practicing criminal defense as an attorney in
Michigan for 35 years and representing federal defendants for nearly thirty
of those years. [R. 294 at 72, PgID 2776].
22.

At a status conference on April 12, 2010, with MacLIoyd present and

in agreement, Cripps told the Court that MacLIoyd had not agreed to plead
guilty but requested a new plea cut-off date. [R. 192, PgID 996-98]. At the
plea cut-off, on July 26, 2010, Cripps acknowledged to the Court that he
had received a written plea agreement from AUSA Schneider and had
discussed it with MacLIoyd, but MacLIoyd had “not come to the point that
he is yes or no to it.” [R. 193, PgID 1005- 06],
23.

On August 2, 2010, AUSA Schneider advised Cripps that he had

forwarded to him the 168-210 month plea offer, previously provided to
Waske. [Gov’t Ex. 7]. AUSA Schneider also advised Cripps that MacLIoyd
would face a range of 360 months to life if he was convicted at trial. Id.
-14-

Case 2:08-cr-20289-GCS-DAS ECF No. 299, PagelD.2888 Filed 05/24/18 Page 15 of 22

Cripps conveyed the plea agreement and estimates of the respective
guideline ranges to MacLIoyd right away. [R. 294 at 74, PgID 2778]. They
had multiple discussions about the agreement and the difference in
penalties. [R. 294 at 76, PgID 2780], Cripps testified that he
“remembered] this discussion because ... it was not the usual response
you get in a case of this nature. [MacLIoyd] was not interested in any plea
negotiation. He simply wanted to go to trial, and for me to do it the best I
could with the evidence that was there.” [R. 294 at 76-77, PgID 2780-81].
The Court finds that Mr. Cripps’ testimony at the December 7, 2017
evidentiary hearing was credible.
24.

At the final pretrial conference, on August 5, 2010, the Court

addressed MacLIoyd personally after stating it had been informed
MacLIoyd had rejected the government’s last plea offer. [R. 179, PgID
843]. The Court described the charges to MacLIoyd and made sure he
understood that he would not get an offense-level reduction for
acceptance of responsibility unless he pleaded guilty that day. [R. 179
PgID 846]. MacLIoyd said he understood and wished to go to trial. Id.
25.

Even on the day of trial, when MacLIoyd learned his brother Clifford

would testify against him, he still refused to change his position about
going to trial. [R. 294 at 77, 82, PgID 2781, 2786]. During the entire time
Cripps represented him, MacLIoyd was never interested in any plea - not
-15-

Case 2:08-cr-20289-GCS-DAS ECF No. 299, PagelD.2889 Filed 05/24/18 Page 16 of 22

even Cripps’s suggestion that he might be able to get his sentence down
to the mandatory ten years. [R. 294 at 82, 84, PgID 2786, 2788],
26.

MacLIoyd was convicted on August 26, 2010, at the conclusion of

his trial. [R. 143]. On February 6, 2012, the Court sentenced MacLIoyd to
360 months’ imprisonment. [R. 237].
27.

In July 2011, MacLIoyd wrote a letter to Cripps saying that he had

shown “strong performance” during the trial, but he asked him to file an
affidavit saying he was not sufficiently prepared, as part of his effort to
obtain post-conviction relief. [R. 294 at 25, 78, PgID 2729, 2782],
MacLIoyd offered to guarantee in return that he would not file a
malpractice suit against Cripps. Id. Cripps refused, and MacLIoyd filed a
grievance with the bar against Cripps. Id.
28.

MacLIoyd’s claim that he discovered the plea agreements that had

been communicated to his attorneys for the first time between his
conviction and sentencing [R. 294 at 13, PgID 2717] is not credible. The
Court bases this determination on the contradictory, credible testimony
from Loeb, Waske, and Cripps, the self-serving nature of MacLIoyd’s
testimony, the documentary evidence, MacLIoyd’s dishonest behavior with
regard to the grievance against Cripps, and the Court’s observations of
the proceedings that took place in its presence.

-16-

Case 2:08-cr-20289-GCS-DAS ECF No. 299, PagelD.2890 Filed 05/24/18 Page 17 of 22

29.

MacLIoyd’s claim that he would have accepted both the 135-168 and

168-210 month plea offers, had they been communicated to him, is
incredible. Loeb, Waske, and Cripps testified that they did communicate
these offers to him, and he rejected them. Having been informed of the
135-168 month plea offer by the Court directly, MacLIoyd rejected it in
open court and, by his own admission, never asked any of his attorneys to
see whether that offer might still be available.
30.

MacLIoyd’s true, consistent position throughout the proceedings was

that he was not interested in pleading guilty under any terms that were
actually offered, even when he could have argued for a ten-year sentence
under the cooperation agreement and helped his brother at the same time.
Conclusions of Law
To prevail in an ineffective assistance claim, Mr. MacLIoyd has the
burden to show that Mr. Loeb provided “deficient performance” and that he
was prejudiced by that deficiency. See Strickland v. Washington, 466 U.S.
668, 694 (1984); Huffv. United States, 734 F.3d 600, 606 (6th Cir. 2013).
“[Djefense counsel has the duty to communicate formal offers from the
prosecution to accept a plea on terms and conditions that may be
favorable to the accused.” Missouri v. Frye, 566 U.S. 134, 145 (2012). The
Sixth Circuit has observed further that a criminal defense attorney “has a
clear obligation to fully inform her client of the available options.” Smith v.
-17-

Case 2:08-cr-20289-GCS-DAS ECF No. 299, PagelD.2891 Filed 05/24/18 Page 18 of 22

United States, 348 F.3d 545, 552 (6th Cir. 2003). A failure to explain “the
elements necessary for the government to secure a conviction, discuss
the evidence as it bears on those elements, and explain the sentencing
exposure the defendant will face as a consequence of exercising each of
the options available ... may constitute deficient assistance.” Id. at 553
(citation and quotation omitted).
In this case, the Court finds that Loeb communicated to MacLIoyd
the 135-168 month plea agreement and the consequences of accepting or
rejecting that agreement. These communications occurred, at the very
least, on dates when attorney and client were at the Court for scheduled
plea cutoff conferences: November 6, 2008, December 1, 2008 and
January 13, 2009. Each of these dates was prior to the plea cutoff date
associated with the original indictment. In fact, the date was adjourned
twice at the request of counsel in order to continue making guideline
calculations and to engage in further plea discussions. At the plea cutoff
hearing on January 13, 2009, the Court questioned Mr. MacLIoyd about
the Rule 11 and the cooperation agreement and was satisfied that
MacLIoyd was fully familiar with the terms of those documents and the
consequences of both accepting and rejecting the agreements after
discussing same with Mr. Loeb. While satisfied that Loeb explained the
Rule 11 and cooperation agreement with his client in sufficient detail, to
-18-

Case 2:08-cr-20289-GCS-DAS ECF No. 299, PagelD.2892 Filed 05/24/18 Page 19 of 22

the extent that Loeb may not have done so in even greater detail would
have been due to the fact that it takes two to engage in a discussion and
MacLIoyd demonstrated a lack of interest in accepting the plea that was
actually offered. The Court concludes that Mr. Loeb’s performance was
not deficient as alleged by Mr. MacLIoyd.
Even if MacLIoyd could show deficient performance by Loeb, he
must further demonstrate such deficient performance resulted in going to
trial, when if he had been properly advised he would have pleaded guilty.
See Hill v. Lockhart, 474 U.S. 52, 59 (1985); Laflerv. Cooper, 566 U.S.
156, 163-64 (2012). To make this showing of prejudice, MacLIoyd must
show “a reasonable probability” that “but for the ineffective advice of
counsel,” that three things are true: (1) “the plea offer would have been
presented to the court;” (2) “the court would have accepted its terms;” and
(3) the conviction or sentence, or both, under the offer’s terms would have
been less severe than under the judgment and sentence that in fact were
imposed.” See Lafler, 566 U.S. at 164.
The only issue is whether MacLIoyd would have accepted the 135168 month plea agreement had he known about it and been fully advised
of its terms. When supported by the evidence, “. . . a substantial disparity
between the penalty offered by the prosecution and the punishment called
for by the indictment is sufficient to establish a reasonable probability that
-19-

Case 2:08-cr-20289-GCS-DAS ECF No. 299, PagelD.2893 Filed 05/24/18 Page 20 of 22

a properly informed and advised defendant would have accepted the
prosecution’s offer.” Griffin v. United States, 330 F.3d 733, 737 (6th Cir.
2003). The evidence in this case, however, is that MacLIoyd was fixated
on receiving a ten or even 5 year plea offer that never came. This is true
even though MacLIoyd acknowledged that Loeb told him he should plead
because “[t]his will end terribly for you.” [R. 293 at 62, PgID 2677], The
evidence is that MacLIoyd was not interested in pleading to 135-168
months, even with a cooperation agreement that might have resulted in an
even lower sentence. Where three of his attorneys had the same
experience with MacLIoyd wanting to go to trial instead of pleading, the
substantial disparity between the offer and the actual sentence is not
relevant. See Comrie v. United States, 455 F. App’x 637, 640 (6th Cir.

2012).
MacLIoyd argues that the Court ought not consider the testimony of
Waske and Cripps regarding their plea-related communications with him
due to the attorney-client privilege. The Court permitted counsel’s
testimony at the evidentiary hearing because habeas petitioners implicitly
waive attorney-client privilege “by claiming ineffective assistance of
counsel or by otherwise raising issues regarding counsel’s performance.”
In re Lott, 424 F.3d 446, 452-53 (6th Cir. 2005). Though the remand in

-20-

Case 2:08-cr-20289-GCS-DAS ECF No. 299, PagelD.2894 Filed 05/24/18 Page 21 of 22

this case was limited to whether Loeb fully advised him of a favorable plea
offer, MacLIoyd’s prejudice argument focuses on his continued readiness
to plead right up until trial. Having made his desire to accept a plea
central to his claim of prejudice due to ineffective assistance of counsel
MacLIoyd has waived his attorney-client privilege as to this issue.
It is true that the later plea offers were not identical to the one
MacLIoyd was offered while he was represented by Loeb. This is because
the charges he faced were also not the same due to superseding
indictments having been filed. What was the same, however, was
MacLIoyd’s attitude about going to trial instead of pleading.
There is no credible evidence to support a reasonable probability
that MacLIoyd would have accepted the plea offer assuming that Loeb’s
performance had been competent. The Court concludes that Loeb’s
performance did not prejudice MacLIoyd.
For the foregoing reasons, defendant’s motion to vacate pursuant to
28 U.S.C. § 2255 is DENIED.
IT IS SO ORDERED.
Dated: May 24, 2018
s/Georae Caram Steeh
GEORGE CARAM STEEH
UNITED STATES DISTRICT JUDGE

-21 -

Case: 20-1119

Document: 18-1

Filed: 08/17/2020

Page: 1

(1 of 2)

No. 20-1119

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

Aug 17, 2020
DEBORAH S. HUNT, Clerk

UNITED STATES OF AMERICA, .

)
)
)
)
)
)
)
)
)
)
)
)

Plaintiff-Appellee,
v.
DAVID ERIKE MacLLOYD,
Defendant-Appellant.

ORDER

BEFORE: CLAY, ROGERS, and MURPHY, Circuit Judges.
The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

